No.

3fn tfje

Supreme Court of tf)c ®ntteij States
Nathaniel Borrell Dyer,
Petitioner
v.
Atlanta Independent School District,
Respondents

On Petition For A Writ Of Certiorari to the United States
Court of Appeals For The Eleventh Circuit

CERTIFICATE OF COMPLIANCE

As for petitioner pro se, and as required by Supreme
Court Rule 33.1(h), I certify this 5th day of August, 2021
that the Petition for a Writ of Certiorari contains 8,052
words, excluding the parts of the document that are
exempted by Supreme Court Rule 33.1(d).

Nathaniel Borrell Dyer
Petitioner Pro Se
202 Joseph E. Lowery Blvd. NW
Atlanta, Georgia 30314
August 5, 2021

Received
—AU(Hj)402|luPREMErTtifc^qK

i,

i

Nathaniel Borrell Dyer
202 Joseph E. Lowery Blvd. NW
Atlanta, Georgia 30314
(404) 964-6427
nate@natbotheedge.com
Petitioner Pro Se

All parties required to be served have been served.
Dated August 5, 2021.

Nathajrnel Borrell Dyer
Petitioner Pro Se

